U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 14, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Brandon Thomas Finnesy v. United States of America,
S.Ct. No. 20-5746

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September
14, 2020, and placed on the docket on September 17, 2020. The government’s response is due
on October 19, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 18, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5746
FINNESY, BRANDON THOMAS
USA

DANIEL TYLER HANSMEIER
FEDERAL PUBLIC DEFENDER'S OFFICE FOR
THE DISTRICT
500 STATE AVENUE
STE. 201
KANSAS CITY, KS 66101
913-551-6712
DANIEL_HANSMEIER@FD.ORG

